CERTIFICATE OF SERVICE
No. TBD
Samuel H. Sloan
Petitioner,
v.
Maria Childress, et. al.
Respondents.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Samuel
H. Sloan Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by Fedex 2-Day, prepaid for delivery to the following addresses.
Jeffrey A. Breit
Breit Cantor Grana Buckner, PLLC
Suite 402
600 22nd Street
Virginia Beach, VA 23451
(757) 622-6000
j effrey@breitcantor.com
Counsel for Maria Childress, Shayam Raman,
Susan Swecker, and Chris Bolling

Toby Jay Heytens
Office of the Attorney General of Virginia
202 North 9th Street
Richmond, VA 23219
(804) 786-7240'
theytens@oag. state, va. us
Counsel for Mark Herring, Ralph Northam,
Lawrence Janow, and J. Michael Gamble

William Fisher Etherington, Esq.
Beale Law Firm, PC
Suite 1200
808 Moorefield Park Drive
North Chesterfield, VA 23236
(804) 788-1500
wetherington@bealelaw.com
Counsel for William G. Petty

Elaine Duross McCafferty
Woods Rogers, PLC
123 E. Main St, 5th Floor
Charlottesville, VA 22902-0000
(434) 220-6833
emccafferty@woodsrogers.com
Counsel for Frank G. Davidson III

{ See additional addresses on the following page }

Lucas'DeDeus

June 7, 2021
SCP Tracking: Sloan-1664 Davidson Avenue-Cover White

Additional material
from this filing is
available in the
Clerk's Office.

